                      SPECTO
                 IN            R
             F                     G
         O                             E
     E




                                       N
     C




                                           E
FI




                                           RA
OF




                                               L
                                                   OFFICE OF INSPECTOR GENERAL
                                                        EXPORT-IMPORT BANK
                                                         of the UNITED STATES




                    Audit of
             Export-Import Bank’s
         Short-Term Insurance Program


                                                              September 28, 2012
                                                                   OIG-AR-12-05
 




    To:        Jeffrey Abramson
               Vice President, Trade Finance

               Walter Kosciow
               Vice President, Trade Credit Insurance

    From:      Rebecca Sharek
               Assistant Inspector General for Audits

    Subject:   Audit of Export-Import Bank’s Short-Term Insurance Program

    Date:      September 28, 2012


    This memorandum transmits Audit Report OIG-AR-12-05, “Audit of Export-Import
    Bank’s Short-Term Insurance Program”. Cotton & Company LLP, under a contract
    issued by the Office of Inspector General, performed the audit. The objective of the
    audit was to determine whether the Export-Import Bank’s Short-Term Insurance
    Program had effective policies and procedures to manage credit risks and losses as
    well as to identify and respond to fraud risk during fiscal years 2010 and 2011.

    The audit found that (1) Short-Term Insurance Program procedures were not
    adequately documented or consistently followed; (2) duties were not always
    segregated appropriately; and (3) system calculations were not always accurate.
    The auditors made 10 recommendations for corrective action. Management
    concurred with 6 of the 10 recommendations. For Recommendations A1, A2, B1, B2,
    D3, and E, management’s proposed actions are responsive to the intent of the
    recommendations. The recommendations are resolved and will be closed upon
    completion and verification of the proposed actions. Management partially
    concurred or nonconcurred with the remaining four recommendations. For
    Recommendations C1, C2, D1, and D2, management’s comments and/or proposed
    actions are unresponsive and do not adequately address the concerns that
    prompted the recommendations. We reaffirm the basis for both the findings and
    recommendations and have referred the matter to the Export-Import Bank Audit
    Follow-Up Official for resolution.

    We appreciate the courtesies and cooperation extended to the auditors during the
    audit. If you have questions, please contact me at (202) 565-3169 or
    rebecca.sharek@exim.gov.




                      811 Vermont Avenue, NW Washington, D.C. 20571
cc:   Fred Hochberg, Chairman and President
      Alice Albright, Executive Vice President and Chief Operating Officer
      Audit Committee
      David Sena, Senior Vice President and Chief Financial Officer
      Patricia Wolf, Supervisory Accountant
      John McAdams, Senior Vice President, Export Finance
      Charles Tansey, Senior Vice President, Small Business
      Arnold Chow, Director, Short-Term Business
      Jean Fitzgibbon, Director, Trade Credit Insurance
      Richard Brackley, Managing Director, Claims and Recoveries




                 811 Vermont Avenue, N.W. Washington, D.C. 20571
September 28, 2012


Rebecca Sharek
Assistant Inspector General for Audit
Export-Import Bank
811 Vermont Avenue, N.W.
Washington, D.C. 20571

Subject:      Audit of Export-Import Bank’s Short-Term Insurance Program

Dear Ms. Sharek:

We are pleased to submit this report in support of audit services provided to the Export-Import
Bank of the United States (Ex-Im)’s Office of the Inspector General. Cotton & Company LLP
conducted an independent audit of Ex-Im’s short-term insurance program to determine if it had
effective policies and procedures to manage credit risk and losses, as well as to identify and
respond to fraud risk during FYs 2010 and 2011. Cotton & Company performed the work from
March through August 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards, as amended, promulgated by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence that provides a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence we obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Please feel free to contact me with any questions.

Sincerely,

COTTON & COMPANY LLP



Matthew Johnson, CPA, CISA, CGFM
Partner



                                               i
SHORT-TERM INSURANCE                                            INDEPENDENT AUDIT REPORT



                                      CONTENTS

Section                                                                           Page
I.   Executive Summary                                                               1
II. Background                                                                       3
III. Objectives                                                                      5
IV. Audit Results                                                                    5
     A Inadequate Written Policies and Procedures                                    5
     B Inconsistent Character, Reputation, and Transaction Integrity Due             8
        Diligence
     C Inconsistent Adherence to Procedures                                          10
     D Lack of Segregation of Duties                                                 12
     E Inaccurate Calculation of Exporter Score                                      15
V.   Scope and Methodology                                                           16
Appendixes
I.   Acronyms
II. Short-Term Insurance Program Products
III. Management Response




                                           ii
I.       EXECUTIVE SUMMARY

The Export-Import Bank of the United States (Ex-Im Bank) offers export-credit insurance to
assist United States (U.S.) exporters in selling their goods overseas by protecting them
against the risk of foreign-buyer or other foreign-debtor default for political or commercial
reasons. This allows U.S. exporters to extend competitive credit terms to their international
customers with reduced risk. The short-term insurance program policies are issued for one
year. They cover commercial and political risks; insure open-account or letter-of-credit sales
for a large variety of consumer goods, non-durables, spare parts, and bulk agriculture
products; and apply to shipments to one or multiple buyers. Ex-Im Bank has two divisions
that conduct the short-term insurance program: the Trade Finance Division (TFD) and the
Trade Credit Insurance Division (TCID).

Short-term insurance authorizations have significantly increased in recent years due to the
worldwide financial crisis. Between fiscal years (FYs) 2007 and 2011, authorizations
increased over 106 percent, from $3.3 billion in FY 2007 to $6.8 billion in FY 2011. The
volume of short-term insurance claims has also increased. Specifically, claims rose 42
percent, from 200 claims in FY 2010 to 284 claims in FY 2011. The claims increase during FY
2011 was isolated to TCID’s portfolio and was a result of several frauds that involved
multiple exporters. These frauds represented approximately 100 claims.

Cotton & Company LLP, under a contract issued by the Office of Inspector General, completed
an independent audit of the Ex-Im Bank short-term insurance program. We performed the
audit to determine if the program had effective policies and procedures to manage credit risk
and losses as well as to identify and respond to fraud risk during FYs 2010 and 2011.

Our audit found that although procedures exist, these procedures are not adequately
documented or consistently followed; duties were not always segregated appropriately; and
system calculations were not always accurate. Specifically, we identified the following areas
for improvement:

     •   Inadequate Written Policies and Procedures. The strength of existing credit risk
         management procedures is a direct result of the long tenure and institutional
         knowledge of short-term insurance program employees. However, the short-term
         insurance program has not adequately documented its policies and procedures in the
         form of official policies and directives. Existing documentation was not
         comprehensive or complete, and in some instances was outdated. Furthermore,
         program documentation did not identify all risks, including fraud risk factors, and had
         not consistently identified procedures to address identified risks. (Finding A)

     •   Inconsistent Character, Reputation, and Transaction Integrity (CRTI) Due
         Diligence. The purpose of CRTI due diligence is to identify potential risks related to
         the trustworthiness of transaction participants, the possibility of negative publicity
         from Ex-Im Bank’s involvement with the transaction, and the possibility that the
         transaction is not legitimate or involves fraud, corruption, or other suspect practices.


                                                 1
       However, short-term insurance program personnel do not always perform proper
       CRTI due diligence. (Finding B)

   •   Inconsistent Adherence to Procedures. Ex-Im Bank personnel inconsistently apply
       procedures that ensure compliance with program requirements and proper credit
       risk management. (Finding C)

   •   Lack of Segregation of Duties. Ex-Im Bank does not segregate duties for
       underwriting and authorizing new short-term insurance program policies, new
       Special Buyer Credit Limits (SBCLs), enhanced assignments, or renewals of high-
       dollar or high-risk policies. While commercial banks may not always segregate these
       duties either, all Ex-Im Bank transactions are backed by the full faith and credit of the
       U.S. Government, and Ex-Im Bank has a duty to properly safeguard taxpayer resources
       under its stewardship. (Finding D)

   •   Inaccurate Calculation of Exporter Score. Ex-Im Online (EOL) calculations of the
       exporter score, which assists in determining the risk of an exporter for a multi-buyer
       policy, are not always accurate. (Finding E)

The lack of comprehensive written policies and procedures may result in inconsistent
performance of duties, reduce the effectiveness of the program’s controls, and reduce
productivity. In addition, lack of compliance with the program’s policies and procedures,
improper segregation of duties, and reliance on inaccurate data may cause the program to
assign the wrong level of risk to a transaction. As a result, insurance policies may be
authorized with risk levels higher than Ex-Im Bank would otherwise accept, increasing the
risk of financial loss to the Ex-Im Bank through claims or through issuance of insurance
policies based on erroneous and potentially fraudulent information, or Ex-Im Bank may
assign a higher level of risk than appropriate and not offer the insured the best policy terms.

To address these issues, we recommended that the short-term insurance program:

       Document and implement comprehensive policies and procedures for the short-term
       insurance program. This includes implementing enhanced procedures for
       applications that have elevated business risk or fraud risk. (Recommendations A1 and
       A2)

       Require that officials authorizing insurance policies verify that CRTI due diligence was
       completely performed and properly documented prior to approving the policy.
       (Recommendation B1)

       Develop and implement a monitoring process for periodically reviewing a sample of
       credit decisions and ensure that the due diligence performed complied with the
       program’s policies and procedures. (Recommendations B2, C2, and D3)

       Develop and implement a due diligence procedure checklist that is completed by the
       official authorizing the short-term insurance policy prior to approval.
       (Recommendation C1)


                                               2
       Require a separation of duties between staff performing the underwriting process and
       the official authorizing all new policies, new SBCLs over $5,000, all enhanced
       assignments, all renewals over $1 million, and all high-risk policy renewals.
       (Recommendations D1 and D2)

       Implement controls to ensure that exporter score calculations used during
       underwriting are reliable. (Recommendation E1)

Management’s response to our recommendations is reprinted in Appendix III.

II.    BACKGROUND

Ex-Im Bank is an independent executive agency and a wholly-owned U.S. government
corporation. Ex-Im Bank assumes credit and country risks that the private sector is unable or
unwilling to accept. It also helps U.S. exporters remain competitive by countering export
financing provided by foreign governments on behalf of foreign companies.

Ex-Im Bank provides working capital guarantees (pre-export financing), export-credit
insurance, and loan guarantees and direct loans (buyer financing). Ex-Im Bank offers export-
credit insurance to assist U.S. exporters in selling their goods overseas by protecting them
against the risk of foreign-buyer or other foreign-debtor default for political or commercial
reasons. This allows U.S. exporters to extend competitive credit terms to their international
customers with reduced risk. Insurance policies may cover short- or medium-term sales,
commercial and political risks, and shipments to one or multiple buyers.

Ex-Im Bank’s short-term insurance program policies insure open-account or letter-of-credit
sales for a large variety of consumer goods, non-durables, spare parts, and bulk agriculture
products produced in the U.S. Policies are available for terms up to 180 days for most
products. Policies for bulk agricultural and capital and/or quasi-capital goods may be
available for up to 360 days. Between FYs 2007 and 2011, authorizations increased over 106
percent, from $3.3 billion in FY 2007 to $6.8 billion in FY 2011. Ex-Im Bank authorized $6.8
billion in short-term insurance during FY 2010. It authorized an additional $6.8 billion in FY
2011.

To be eligible for Ex-Im Bank’s short-term insurance program, goods must have more than
50 percent U.S. content and be shipped from the U.S. Services must be performed by U.S.-
based personnel. Defense articles and services, as well as military buyers, are prohibited,
although some exceptions may apply.

Ex-Im Bank has two divisions that conduct the short-term insurance program: TCID and TFD.
Each division has multiple products supporting program objectives, as shown in the
following table:




                                              3
                         TCID                                                TFD
    Multi-Buyer (Exporters):                           Single Buyer (Exporters):
    • Standard Policy                                  • Comprehensive Policy
    • Standard Political-Only Policy                   • Political-Only Policy
    • Reasonable Spread of Risk Policy                 Single Buyer (Financial Institutions):
    • Small Business Policy                            • Financial Institution Buyer Credit Export
    • Small Business Environmental Policy                Insurance – Buyer Credits
    • Small Business Express Policy                    • Financial Institution Buyer Credit Export
                                                         Insurance – Supplier Credits
                                                       Multi-Buyer (Financial Institutions):
                                                       • Bank Letter-of-Credit Policies

Depending on the product, policy terms are typically one year and may be renewable.
Coverage is normally 90-95 percent, and premiums are determined based on various risk
factors. Claims may not be filed earlier than 90 days after a default date (60 days for Bank
Letter-of-Credit policies). Similarly, claims may not be filed more than 8 months after a
default date (120 days for Bank Letter-of-Credit policies and 150 days for Financial
Institution Buyer Credit policies).

TCID’s multi-buyer portfolio consists of a high volume of small transactions, while TFD’s
portfolio consists of lower-volume, higher-dollar transactions. In addition, the focus of the
due diligence performed during underwriting differs. TCID performs due diligence on the
insured—the exporter—and the insured’s ability to manage export credit decisions,
especially because buyers are not usually known to Ex-Im Bank at the time of underwriting.
TCID will, however, perform due diligence on a buyer if an SBCL is requested. TFD due
diligence is performed on the insured as well as the primary source of repayment, which is
typically the buyer.

The tables below show Ex-Im Bank’s total short-term insurance program policy
authorizations and claims managed by TCID and TFD in FYs 2010 and 2011.1

                                              Authorizations
                                                 Fiscal Year 2010                  Fiscal Year 2011
Insurance Program                            Quantity        Value            Quantity         Value
TCID Multi-Buyer (Exporter)                    2,061     $1,805,809,201         2,340      $1,953,152,136
TFD Single Buyer (Exporter)                      378        166,733,572           388         162,310,102
TFD Single Buyer (Financial Institution)         180        541,549,000           200         733,198,000
TFD Multi-Buyer (Financial Institution)           59      4,272,000,000             63      3,915,000,000
Totals                                         2,678 $6,786,091,773             2,991     $6,763,660,238




1Represents all claims filed in the current and previous fiscal years with decisions made in either FY 2010 or FY
2011. Totals include approved, denied, and withdrawn claims.


                                                        4
                                               Claims
                                              Fiscal Year 2010            Fiscal Year 2011
Insurance Program                          Quantity        Value       Quantity       Value
TCID Multi-Buyer (Exporter)                     178       $4,724,944        266     $12,542,781
TFD Single Buyer (Exporter)                        4         352,409          4         481,005
TFD Single Buyer (Financial Institution)         18       26,635,811         14      21,302,013
TFD Multi-Buyer (Financial Institution)            0               0          0               0
Totals                                          200     $31,713,164        284     $34,325,799

Details for each of the short-term insurance program’s products are in Appendix II.

III.    OBJECTIVES

The audit objective was to evaluate whether Ex-Im Bank has effective policies and
procedures to manage credit risk and losses and identify and respond to fraud risk for its
short-term insurance program. Specifically, we determined if Ex-Im Bank had established
effective policies and procedures related to short-term insurance credit-underwriting due
diligence and, if applicable, exported merchandise was shipped to the approved, designated
country. The objective also included determining if Ex-Im Bank complied with its own short-
term insurance program policies and procedures and applicable laws, rules, and regulations.

IV.     AUDIT RESULTS

Key elements to ensure that Ex-Im Bank has effective policies and procedures in the short-
term insurance program to manage credit risk and losses, as well as fraud risk, include:

        Identifying internal and external risks to the program, including those related to
        fraud; analyzing the potential impact to the program; and identifying and
        implementing control activities that mitigate the risks.
        Documenting and communicating program policies and procedures to all relevant
        personnel.

        Ensuring that policies and procedures are carried out completely and consistently.

Our audit found that although procedures exist, the procedures are not adequately
documented or consistently followed; duties were not always segregated appropriately; and
system calculations were not always accurate. We identified the following areas for
improvement.

A. Inadequate Written Policies and Procedures

Although the short-term insurance program generally employed effective procedures, we
found that the program had not adequately documented those procedures in its formal
policies and directives. Instead, the program relied heavily on the long tenure and
institutional knowledge of its personnel; one-on-one knowledge transfer among personnel;
and materials that are publically available, including marketing materials and instructions or

                                                  5
notices to applicants, to communicate program policies and procedures. We found that
existing program documentation was not comprehensive or complete, and in some instances
was outdated.

TFD does not have formal, written credit due diligence policies and procedures. Instead, it
relies on an informal desk-procedures document, Instructions for the Preparation of Credit
Memoranda, which provides guidance on the proper format and content of underwriting
summary memoranda and serves as a guideline for the underwriting process. We noted that
TCID is currently updating its policies and procedures; however, TCID had not updated its
primary policy and procedure document, the Exporter Underwriting Manual, since 1998. We
also found that Ex-Im Bank’s Short Term Credit Standards, which is used internally by Ex-Im
Bank’s personnel as well as by customers and brokers, does not include credit standards for
Ex-Im Bank’s new Express Insurance product.

In addition, short-term insurance program documentation did not always clearly identify
program risks, including fraud risks, and processes to address these risks. While Ex-Im Bank
has identified general risk factors, the short-term insurance program documentation
generally did not identify the risks specific to individual policy types. For the risks that were
identified, the specific procedures or processes designed to address the risks were not
always documented.

Finally, we observed that the level of due diligence performed was generally based on the
dollar value of the transaction. While program personnel may perform additional due
diligence on some transactions that may have higher business or fraud risk, the program
does not have clear guidance as to when enhanced due diligence may be necessary and the
amount of due diligence that may be appropriate. For example, if fraud risk factors are
identified, expanded due diligence may include requiring financial statements that are
reviewed or audited by a licensed certified public accountant (CPA), verifying that the CPA is
licensed, and contacting the licensed CPA to confirm that they prepared the review or audit
report.

Comprehensive policy and procedure documentation should clearly state program
objectives, identify risks that impact the program’s ability to meet its stated objectives, and
identify procedures that the program employs to obtain reasonable assurance that stated
objectives are met. The documentation should also provide personnel with a clear
understanding of program objectives as well as management’s policies and directives, and
should enable personnel to carry out their job function.

U.S. Government Accountability Office’s Standards for Internal Control in the Federal
Government states:

       Effective internal control helps in managing change to cope with shifting environments
       and evolving demands and priorities. As programs change and as agencies strive to
       improve operational processes and implement new technological developments,
       management must continually assess and evaluate its internal control to assure that the
       control activities being used are effective and updated when necessary….

                                                6
       Management is responsible for developing the detailed policies, procedures, and
       practices to fit their agency’s operations and to ensure that they are built into and an
       integral part of operations….

       Internal control and all transactions and other significant events need to be clearly
       documented […] The documentation should appear in management directives,
       administrative policies, or operating manuals….

The lack of comprehensive written policies and procedures that reflect current practices and
programmatic risks may cause gaps in the program’s internal controls, create inconsistency
in the performance of duties, reduce the effectiveness of the program’s control, reduce
productivity, and result in the loss of institutional knowledge. This increases the risk of
financial loss to Ex-Im Bank through claims or through issuance of insurance policies based
on erroneous and potentially fraudulent information.

We recommended that TCID and TFD:

   •   Document policies and procedures through the use of management directives,
       administrative policies, and operating manuals, and review and update them regularly
       (as needed or at least once every 3 years). Documentation should identify Ex-Im
       Bank’s risks, including fraud risks, and procedures to address these risks.
       (Recommendation A1)

   •   Implement enhanced due diligence procedures for insurance applications that may
       have elevated business risks or fraud risks, and document these procedures in the
       Short-Term Insurance Program’s policy and procedure documentation.
       (Recommendation A2)

Management’s Response

The Vice Presidents of TCID and TFD stated that both divisions have drafted updated
Operating Manuals as part of a Bank-wide effort to consolidate, document, and update
policies and procedures across all Bank programs. According to the Vice Presidents, these
policies and procedures will address enhanced due diligence procedures for applications that
represent elevated business or fraud risks.

TCID is completing final edits to its Manual update which will approach a total of 100 pages,
encompassing risk management guidelines, credit decision making procedures, and
insurance coverage tailoring advice for all TCID transaction types (Quotation, Renewal &
Amendment of Exporter Multibuyer Insurance policies; Approval, Renewal, Amendment of
[foreign] Buyer Credit Limit transactions; Approval, Renewal of Enhanced Assignment
Agreements which protect lenders against exporter performance risk). TCID’s Manual will be
delivered on or before September 14, 2012 to both Cotton & Company and Ex-Im Bank’s
Credit Review Division.


                                                7
Specifically with regards to fraud prevention and detection practices, TCID is also producing
a brief manual of procedures and monitoring practices to diligently monitor the portfolio of
approximately 90 Enhanced Assignment Agreements. These practices are intended to help
manage this “elevated risk” portfolio component and to identify, deter, or initiate
intervention where exporter fraud may be suspected.

TCID will have one Loan Specialist (without credit authority) assuming the Compliance
Officer role to semiannually review each Enhanced Assignment exporter’s policy activity,
review policy management/performance, request sample transaction documentation from
each exporter’s respective lenders, and perform validation inquiries with shipping
companies identified in the sample transaction documents to verify the exporter’s
transactions were made. A semi-annual summary will be produced by the Compliance Officer
on each Enhanced Agreement exporter and circulated to TCID and TFD management.

TCID is targeting September 14, 2012 for a vetting draft to be circulated to TFD, the Credit
Review Division, and the Executive Working Group for internal consensus ahead of
producing the final draft that will govern implementation (October 2012).

Evaluation of Management’s Response

Management’s proposed actions are responsive; therefore, the recommendations are
resolved and will be closed upon completion and verification of the proposed actions.

B. Inconsistent CRTI Due Diligence

Short-term insurance program personnel are required to ensure that proper CRTI due
diligence is completed before approving new or renewed authorizations. The purpose is to
identify potential risks related to the trustworthiness of transaction participants, the
possibility of negative publicity from Ex-Im Bank’s involvement with the transaction, and the
possibility that the transaction is not legitimate or involves fraud, corruption, or other
suspect practices. Specific controls include ensuring that TCID and TFD:

       Obtain a signed Ex-Im Bank Certifications and Notices Statement from the applicant
       confirming that all transaction participants comply with U.S. laws and regulations and
       international trade agreements, and are not on U.S. or international debarment lists.

       Submit the names of all relevant parties involved in each transaction to the Ex-Im
       Bank Library. The Library searches 19 databases, which include federal and
       international debarment and sanction lists, news items, and legal notices, for potential
       matches of names and addresses. Any match identified must be cleared by Ex-Im
       Bank’s Credit Review and Compliance Division. This search is required for all new
       policies, policy renewals, issuing bank credit limit (IBCL) requests, and SBCL requests.




                                               8
Our testing confirmed that Ex-Im Bank did not always perform complete CRTI due diligence.
During our testing of 159 authorizations and 19 SBCL or IBCL decisions during FYs 2010 and
2011, we noted the following:

       For nine authorizations, the program was not able to provide evidence that the
       applicant completed the Certification and Notices Statement.

       For five authorizations, the program was not able to provide evidence that a CRTI
       search was performed.

       For one authorization, TFD requested that a CRTI search be performed on the buyer,
       but not on the exporter.

       For two authorizations, the CRTI search was not performed because of an error in
       EOL transaction reporting. During early FY 2010, transactions selected for “Auto
       Underwriting” were not included in the activity report, which TCID uses to compile
       the list given to the Library to perform CRTI searches. This error was identified by
       TCID and corrected during FY 2010. We noted this same condition for two SBCL
       decisions tested during our additional claims testing.

Ex-Im Bank’s Character, Reputational, and Transaction Integrity Due Diligence Internal
Policies and Procedures requires that applicants provide certifications and warranties that
transactions are legitimate and that participants are of suitable reputation and character;
that underwriters independently verify whether a known transaction participant (including
lenders, exporters, and suppliers) appears on any of the Prohibited or Restricted Parties lists
maintained by Ex-Im Bank, the U.S. Government, certain foreign governments, and/or
multilateral organizations; and that all due diligence is maintained in the transaction file.

Without proper CRTI due diligence, short-term insurance policies may be authorized with risk
levels higher than Ex-Im Bank would otherwise accept. This increases the risk of financial loss to
Ex-Im Bank, either through claims or through issuance of insurance policies based on erroneous
and potentially fraudulent information.

We recommended that TCID and TFD:

   •   Develop and implement policies and procedures to ensure that individuals with
       delegated authority verify that complete CRTI due diligence is performed and
       documented before approving a policy, such as requiring an indicator on the credit
       decision memo showing that CRTI due diligence was completed and properly
       documented. (Recommendation B1)

   •   Develop and implement a monitoring process for periodically reviewing a sample of
       short-term insurance program authorizations to ensure that CRTI due diligence
       complies with policies and procedures. (Recommendation B2)




                                               9
Management’s Response

The Vice Presidents of TCID and TFD stated that both divisions have established practices in
place for performing CRTI due diligence as part their respective transaction credit decision
making processes. Further, they noted that (1) this due diligence is inherently the
responsibility of the individual exercising delegated credit authority, and (2) what may be
inconsistent is how each individual with credit authority, or a subordinate credit officer
producing the credit memorandum for the individual having Individual Delegated Authority,
is documenting the CRTI performance. Credit decision memorandum templates or online
system Underwriting Summaries can be amplified for a necessary memo indicator
confirming performance of CRTI prior to formal transaction document production. In
addition, the Vice Presidents expect that the Credit Review and Compliance Division will
continue to perform regular reviews of transactions authorized under delegated authority
that would encompass monitoring of the documentation of the CRTI process being
completed. The Vice Presidents noted that the “hit rate” of matches determined through the
current CRTI search process is extremely low which suggests that incremental risk is limited
in this area.

Evaluation of Management’s Response

Management’s proposed actions, in conjunction with management’s actions provided for in
response to recommendations A1/A2, are responsive; therefore, the recommendations are
resolved and will be closed upon completion and verification of the proposed actions.

C. Inconsistent Adherence to Procedures

We tested a sample of 167 short-term insurance policies authorized by TCID and TFD, as well
as 15 SBCLs and 4 IBCLs, to determine if Ex-Im Bank complied with existing due diligence
policies and procedures. We found:

   •   One authorization tested did not meet Ex-Im Bank’s U.S. content requirement.
       During the underwriting process, the Relationship Manager (RM) reviews the short
       term insurance application to ensure that the applicant has affirmed the U.S. content
       of the goods being exported and that the product description on the application is
       likely to have more than 50 percent U.S. content. However, TFD authorized a Financial
       Institution Buyer Credit policy even though the application stated that the exported
       goods did not meet the U.S. content requirement. While the supplier may not have
       been known at the time of application and the insured would have received an
       “Exporter’s Certificate” which would have provided evidence of the shipment’s U.S.
       content after shipment in the event of a claim, the RM manager should have
       performed additional due diligence to determine if the exported goods would meet
       the U.S. content requirement.

   •   One authorization was issued at an amount higher than what was
       recommended by both the underwriter and approver. The insured requested a
       $2.1 million policy, which was entered into EOL. TFD determined that the requested

                                             10
       exposure was too high a repayment risk for Ex-Im Bank and recommended and
       approved a lower policy limit of $1.0 million. Neither the underwriter nor approver
       changed the original insurance policy amount in EOL, nor was the error detected prior
       to the approval or the issuance of the authorization.

   •   One SBCL with a credit limit of $200,000 was approved although the Short-Term
       Credit Standards (STCS) were not met. Ex-Im Bank has established STCS as the
       standardized basis for evaluating the creditworthiness of parties for each type of
       short-term policy. Any standards not met should be mitigated by some additional
       information that helps increase the likelihood of repayment. For a SBCL of $200,000,
       STCS require a favorable credit agency report and one of the following: a trade
       reference with similar amount and terms, the applicant’s ledger experience with
       similar amount and terms, or the buyer’s signed financial statement for the two most
       recent fiscal years. However, we observed that for one SBCL with a credit limit of
       $200,000, the credit report that TCID obtained on the buyer was not favorable, and
       TCID did not obtain a favorable trade reference, ledger history, or financial statements
       as required. Furthermore, the missed STCS were not mitigated by the underwriter.

During our review of the underwriting history of policies that had claims, we also found one
SBCL authorization in which the buyer did not meet the STCS requirement for years of
experience. Per the underwriting summary, TCID mitigated the missed standard based on
the buyer’s favorable credit report and financial condition. TCID was not able to provide the
credit report that supports these mitigating factors.

Content Policy for Short-term Programs (Inst-12-010) states that to be eligible for Ex-Im Bank
support, “Each Product must have more than 50% U.S. content based on labor, material, and
direct overhead, exclusive of any profit.”

Office of Management and Budget Circular A-123, Management Accountability and Control,
states that management should develop controls that reasonably ensure that “reliable and
timely information is obtained, maintained, reported and used for decision making.”

Ex-Im Bank Short Term Credit Standards (EIB 99-09) states that:

       …the criteria Ex-Im Bank will apply in evaluating the creditworthiness of the primary
       source of repayment or, in the case of the multi-buyer product, the ability of the exporter
       to manage and evaluate credit in a reasonable and prudent manner...

       Ex-Im Bank will consider approval of an application that does not entirely meet the
       standards if mitigating credit factors exist.

By not adhering to underwriting policy and procedures, Ex-Im Bank authorized a policy that
did not comply with its mission to assist in financing the export of U.S. goods and services. In
addition, Ex-Im Bank authorized a policy and an SBCL with risk levels higher than what Ex-
Im Bank would otherwise accept and that did not conform to Ex-Im Bank’s standards.


                                               11
We recommended that TCID and TFD:

   •   Develop and implement a due-diligence procedure checklist that is completed by
       individuals with delegated authority to approve authorizations, SBCLs, and IBCLs.
       (Recommendation C1)

   •   Develop and implement a monitoring process for periodically reviewing a sample of
       authorizations to ensure that the decision complied with Ex-Im Bank’s policies and
       procedures. (Recommendation C2)

Management’s Response

The Vice Presidents of TCID and TFD stated that they do not believe that a checklist that
simply indicates whether basic action has been taken, without the result of that action,
enhances a decision-makers ability to establish that sufficient action has been taken.
Furthermore, they stated that decision-memorandum templates were developed in an effort
to guide loan officers to address essential items of analysis in a manner that allows the
decision-maker to assess whether or not the due diligence performed was sufficient.

The Vice Presidents stated that Ex-Im Bank’s Short Term Credit Standards serve a dual
purpose of offering customers transparency and a means to assure consistency on how their
credit transactions are being evaluated. The Standards also offer credit officers, with or
without Individual Delegated Authority, a framework for their credit analysis. However, each
transaction may have unique material adverse issues or require comprehensive justification
to mitigate a missed credit standard. The Vice Presidents noted that the Bank’s Credit Review
and Compliance Division annually audits random sample TCID and TFD transactions with the
objective of assessing the quality of the credit decision making justifications and adherence
to prescribed due diligence practices.

Evaluation of Management’s Response

Our recommendation to develop and implement a due-diligence procedures checklist is
intended to ensure individuals with delegated authority to approve authorizations consider
all variables when making determinations. We agree that such a checklist by itself will not
enhance a decision-maker’s ability to establish that sufficient action has been taken;
however, it will provide a tool for ensuring that decision-makers have taken all factors into
consideration prior to making a determination.

Additionally, management should establish review procedures to monitor decisions for
compliance with policies and procedures.

Management’s comments are considered unresponsive; therefore, the recommendations are
unresolved and will be referred to the Ex-Im Bank Audit Follow-Up official.




                                              12
D. Lack of Segregation of Duties

The TCID multi-buyer portfolio consists of a high volume of small transactions. During FYs
2010 and 2011, TCID authorized over 4,300 policies, as depicted in the following table:

                                 FY 2010                      FY 2011
                         Count         Total          Count         Total
       New Policies        472      $385,646,600        523      $331,459,290
       Policy Renewals   1,569    $1,366,562,601      1,814    $1,621,201,539
       Total             2,041    $1,752,209,201      2,337    $1,952,660,829

We noted that the same individual performed both underwriting and approvals of 62 of the
98 TCID authorizations included in our testing. This is allowed under Ex-Im Bank’s Board of
Directors’ Individual Delegated Authority Board Resolution dated July 26, 2010, and
authorized individuals approved all policies. TCID could, however, strengthen its controls
over authorizations by segregating underwriting and approving functions. This segregation
of duties exists in TFD.

TCID has historically employed this risk-based approach, which identifies and measures risk
based on the dollar value of the transaction and delegates authority based on the knowledge,
skills, and qualifications of personnel, because of the high volume of TCID transactions. While
similar practices may occur in the commercial market, Ex-Im Bank has a duty to the taxpayer
to safeguard its resources, as all Ex-Im Bank transactions are backed by the full faith and
credit of the U.S. Government.

U.S. Government Accountability Office’s Standards for Internal Control in the Federal
Government states:

       Key duties and responsibilities need to be divided or segregated among different people
       to reduce the risk of error or fraud. This should include separating the responsibilities
       for authorizing transactions, processing and recording them, reviewing the transactions,
       and handling any related assets. No one individual should control all key aspects of a
       transaction or event.

Because the same individual within TCID frequently performs underwriting, approval, and
authorization, policies may be authorized with risk levels higher than Ex-Im Bank would
otherwise accept. This increases the risk of financial loss to Ex-Im Bank, either through
claims or through issuance of insurance policies based on erroneous and potentially
fraudulent information.

We recommended that TCID:

   •   Require separate individuals to perform the underwriting and approving functions for
       all new multi-buyer policies, all new SBCLs over $5,000, and all enhanced
       assignments. (Recommendation D1)

                                              13
   •   Require separate individuals to perform the underwriting and approving functions for
       all policy renewals with a limit over $1 million or with an enhanced assignment or if
       the transaction has elevated business or fraud risks. (Recommendation D2)

   •   Develop and implement periodic reviews of authorizations underwritten and
       approved by the same individual to ensure that decisions complied with Ex-Im Bank’s
       due diligence policies and procedures. (Recommendation D3)

Management’s Response

The Vice President of TCID stated that the division processes well over 16,000 transactions
annually, many of which are small (less than $300,000) foreign buyer credit limits. Cycle
times and customer service goals are tight, hence it is impractical to segregate underwriting
and authorizing duties on each TCID transaction. The Vice President proposed that
segregation of duties apply on only the most elevated risk transactions, represented by all
Enhanced Assignment Agreement transactions, $1,000,000 or larger multibuyer policies with
loss ratios exceeding 100 percent, and buyer foreign credit transactions where footnotes 4, 5,
11, and 13 apply or the per buyer exposure exceeds $1,000,000. The Vice President noted
that the online system currently is programmed to require segregated duties for both policy
and buyer credit limit decision making based on progressively higher amounts and some of
the noted footnotes.

Further, the Vice President proposed that, in addition to the Credit Review and Compliance
Division’s annual audit of sample TCID transaction underwriting, TCID management conduct
its own internal, annual audit of transaction samples of each officer with Individual
Delegated Authority. The summary findings would be shared with the Credit Review and
Compliance Division.

Regarding segregation of duties within TFD, management noted that TFD intends to shortly
grant Individual Delegated Authority to loan officers who would then both underwrite and
authorize certain short-term transactions. TFD intends to limit the amount and risk profile of
transactions that could be processed under this authority. Each transaction would continue
to require prior supervisor screening for directing the loan officer towards decision making
action under their own authority.

Evaluation of Management’s Response

Key duties and responsibilities must be divided or segregated among different individuals to
reduce the risk of error or fraud. This should include separating the responsibilities for
authorizing, processing and recording, and reviewing transactions, as well as for handling
any related assets. No one individual should control all key aspects of a transaction or event.

Management’s proposed actions are considered unresponsive; therefore, recommendations
D1 and D2 are unresolved and will be referred to the Ex-Im Bank Audit Follow-Up official.



                                              14
With respect to our recommendation D3 for developing and implementing periodic reviews
of authorizations underwritten and approved by the same individual, TCID proposed that
management conduct annual internal audits of transaction samples for each officer with
Individual Delegated Authority. These audits, when accomplished, should satisfy the
recommendation. The recommendation is resolved and will be closed upon completion and
verification of the proposed actions.

E. Inaccurate Calculation of Exporter Score

TCID relies on the exporter score to quantify potential exporter risk during the credit
underwriting process for short-term multi-buyer policies. The score is a composite of
ten components and is calculated by EOL from data in the application or from information
entered by the RM. During our testing, we observed that EOL did not always properly
calculate the exporter score. Specifically, we noted that during renewal underwriting, 2 of the
10 components were not always updated. This error resulted in an exporter score that was
less favorable for the exporter than it would have been had the score been calculated
correctly. TCID did not detect this error.

Office of Management and Budget Circular A-123, Management Accountability and Control,
states that management should develop controls that reasonably ensure that “reliable and
timely information is obtained, maintained, reported and used for decision making.”

TCID relies upon exporter scores that may be inaccurately calculated during renewal, which
may result in a score that is lower than it would be had it been calculated correctly. As a
result, the short-term insurance program may determine that an exporter or transaction is a
higher risk to Ex-Im Bank than it actually is, thus providing the exporter with less favorable
terms for the insurance policy than is appropriate.

We recommended that TCID work with Information Technology Systems Engineering to
implement controls to ensure that EOL’s exporter score calculations used during
underwriting are accurate. (Recommendation E)

Management’s Response

The Vice President of TCID noted that the “Exporter Score” is calculated and used only in the
underwriting of an exporter short term multibuyer policy. The score is intended to
differentiate multibuyer policy exporters based on the quality of their foreign receivable
portfolio and how well they manage foreign credit. The score is then used towards
consideration of granting nominal delegated credit authority (Discretionary Credit Limit) to
the exporter for making smaller foreign buyer credit decisions, effectively reducing a large
administrative burden on TCID staff (approximately 15,000 buyer approvals annually). The
score also contributes towards TCID loan officer’s underwriting Special Buyer Credit Limits
which are required for transactions exceeding the exporters delegated credit authority or if
the Country Limitation Schedule restricts use of that authority.



                                              15
   The Vice President stated that TCID is requesting modifications within EOL to assure
   accurate calculation is made on quotations, renewal, and amendment of multibuyer policies.
   The requirements have been presented to the IMT Division and programmer/developers will
   build in the modifications for user acceptance testing by the end of 2012. The tested
   functionality should be operable by January 2013. In the meantime, instruction has been
   disseminated to TCID staff to manually validate accurate Exporter Scores at each policy
   renewal.

   Evaluation of Management’s Response

   Management’s proposed actions are responsive; therefore, the recommendations are
   resolved and will be closed upon completion and verification of the proposed actions.

   V.         SCOPE AND METHODOLOGY

   The Office of Inspector General engaged Cotton & Company to conduct this audit. We
   conducted this performance audit in accordance with generally accepted government
   auditing standards. Those standards require that we plan and perform the audit to obtain
   sufficient, appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained provides a
   reasonable basis for our findings and conclusions based on our audit objectives.

   We conducted our fieldwork from March 14 – June 21, 2012. To accomplish our objectives,
   we assessed Ex-Im Bank’s policies and procedures over its short-term insurance program.
   Our methodology required that we interview key Ex-Im Bank staff from TCID and TFD to
   obtain an understanding of Ex-Im Bank’s short-term insurance program and to obtain
   relevant information and documentation applicable to the program. We also obtained
   documentation from Ex-Im Bank’s external financial statement auditors to assist us in our
   understanding of the program.

   We also selected samples from policies authorized, SBCL and IBCLs approved, and claims
   paid in FYs 2010 and 2011. Sample sizes by policy types are shown below.



                                             Authorizations Sampled
                                      New                    Renewals               Amendments                  Totals
Policy Type                   Count    Amount        Count      Amount           Count   Amount         Count      Amount
Multi-Buyer                     65     $61,400,000     33          $91,100,000      2      $6,500,000    100      $159,000,000
Single Buyer                    22      88,810,426                                  3       2,944,858     25        91,755,284
Financial Institution Buyer     24     187,514,000                                  3      11,295,000     27       198,809,000
Bank Letter of Credit           10     185,000,000      5           51,000,000      0              0      15       236,000,000
Sample Total                   121    $522,724,426     38       $142,100,000        8     $20,739,858    167      $685,564,284
Population Total              2,114 $2,446,541,118 3,495 $10,989,764,140           60    $113,446,752 5,669     $13,549,752,011
Percent of Population           6%           21%       1%                  1%     13%            18%      3%                5%


                                                              16
                                    SBCLs and IBCLs Sampled
                                                                     SBCL\IBCLs
                    Policy Type                              Count          Amount
                    Multi-Buyer                                15           $6,200,000
                    Bank Letter of Credit                       4           17,704,829
                    Sample Total                               19          $23,904,829


                                            Claims Sampled

                    Product                                  Count       Amount Paid
                    Multi-Buyer                                  44          $3,474,480
                    Single Buyer                                   1            224,761
                    Financial Institution Buyer Credit             2          1,294,871
                    Bank Letter of Credit                          0                  0
                    Sample Total                                 47          $4,994,112
                    Population Total                             484        $66,038,963
                    Percent of Population Tested                10%                 8%


For each of the sampled policies, we tested Ex-Im Bank’s compliance with existing policies
and procedures and evaluated them for adequacy. For claims, we evaluated compliance with
policies and procedures and evaluated the sufficiency of Ex-Im Bank claim reviews. We also
reviewed the underwriting history for 31 of the claims tested, as shown below.

                                Underwriting Review of Claims

                                                                       Claims

                        Product                              Count      Amount Paid
                        Multi-Buyer                             28        $2,234,172
                        Single Buyer                             1           224,761
                        Financial Institution Buyer Credit       2         1,294,871
                        Bank Letter of Credit                    0                 0
                        Sample Total                            31        $3,753,804




                                                     17
APPENDIX I
ACRONYMS
                           ACRONYMS

CPA          Certified Public Accountant
CRTI         Character, Reputation, and Transaction Integrity
EOL          Ex-Im Online
Ex-Im Bank   Export-Import Bank of the United States
FY           Fiscal Year
IBCL         Issuing Bank Credit Limit
RM           Relationship Manager
SBCL         Special Buyer Credit Limit
STCS         Short-Term Credit Standards
TCID         Trade Credit Insurance Division
TFD          Trade Finance Division
U.S.         United States
              APPENDIX II
SHORT-TERM INSURANCE PROGRAM PRODUCTS
                                               SHORT-TERM INSURANCE PROGRAM PRODUCTS

Policy Name                 Multi-Buyer                       Single Buyer               Financial Institution Buyer            Bank Letter of Credit
Policy Holder                 Exporter                          Exporter                     Financial Institution               Financial Institution
Insures            An exporter’s sales to multiple   An exporter’s sales to a single   A financial institution’s short-   The U.S. financial institution’s
                   foreign buyers against the risk   foreign buyer against the risk    term direct buyer credit loan      irrevocable letters of credit
                   of non-payment.                   of non-payment.                   or reimbursement loan made         issued by foreign financial
                                                                                       to a foreign buyer financing       institution that finance U.S.
                                                                                       U.S. exports.                      exports.
Risk covered                                                              Commercial and Political
Exports Covered                                              Exports must contain more than 50% U.S. content.
                                            Exporters of military and defense-related goods and materials are usually excluded.
Rate of Coverage   100% for sovereign buyers         100% for sovereign buyers         100% for sovereign obligors or     100% for sovereign financial
                   95% for private buyers            90% for private buyers            guarantors                         institutions
                   98% for approved agricultural     98% for approved agricultural     90% for private obligors or        95% for private financial
                   commodities                       commodities                       guarantors                         institutions
                                                                                       98% for approved agricultural      98% for approved agricultural
                                                                                       commodities                        commodities
Standard Terms                                           Policies are authorized for one year and may be renewed.
                                        Transaction repayment terms must be no more than 180 days for most goods and services,
                                                      with the exception of 360 days for some qualifying transactions
Premiums           Composite rate is calculated      Varies depending on country,      Varies depending on country,       Uses a risk-based pricing
                   based on spread of risk, buyer    type of buyer, and length of      type of buyer, and length of       system that reflects major risk
                   type, and length of credit        credit term. Minimum              credit term. Requires an           elements of each transaction.
                   terms extended. Requires an       premiums are required.            advance deposit of $2,000.         Requires an advance deposit
                   advance deposit of $500.                                                                               of $2,000.
    APPENDIX III
MANAGEMENT RESPONSE
                             EXPORT-IMPORT BANK
                            of the UNITED STATES
MEMORANDUM

September 18, 2012

TO:            Alice Albright, Chief Operating Officer

CC:            John McAdams, Senior Vice President, Export Finance
               Charles Tansey, Senior Vice President, Small Business

FROM:          Walter Kosciow, Vice President, Trade Credit Insurance
               Jeffrey Abramson, Vice President, Trade Finance

SUBJECT:       Management Response to OIG Draft Audit (conducted by Cotton and
               Company) on Short-term Insurance Programs-OIG-AR-12-05



The follow is the management response to the Office of the Inspector General's draft
audit report of August 15.

Recommendations AlIA2: Document comprehensive short term insurance
policies/procedures (AI) and implement enhanced due diligence procedures (A2)
Both the Trade Finance Division (TFD) and Trade Credit Insurance Division (TCID)
have drafted updated Operating Manuals as part of a Bank-wide effort to consolidate,
document and update policies and procedures across all bank programs. These policies
and procedures will address enhanced due diligence procedures for applications that
represent elevated business or fraud risks.

TCID is completing final edits to its Manual update which will approach a total of 100
pages, encompassing risk management guidelines, credit decision making procedures,
and insurance coverage tailoring advice for all TCID transaction types (Quotation,
Renewal & Amendment of Exporter Multibuyer Insurance policies; Approval, Renewal,
Amendment of (foreign) Buyer Credit Limit transactions; Approval, Renewal of
Enhanced Assignment Agreements which protect lenders against exporter performance
risk. TCID' s Manual will be delivered on or before September 14, 2012 to both the
Cotton Co. and Ex-1m Bank's Credit Review Division (CRD).

Specifically with regards to fraud prevention and detection practices, TCID is also
producing a brief manual of procedures and monitoring practices to diligently monitor the
portfolio of approximately 90 Enhanced Assignment Agreements (EA). These practices
are intended to help manage this "elevated risk" portfolio component and to identify,
deter, or initiate intervention where exporter fraud may be suspected.




               811 Vermont Avenue, N.W. Washington, D.C.                   20571
TCID will have one Loan Specialist (without credit authority) assuming the Compliance
Officer role to semiannually review each EA exporter's policy activity, policy
management/performance, request sample transaction documentation from each
exporter's respective lenders, and perform validation inquiries with shipping companies
identified in the sample transaction documents to verify the exporter's transactions were
made. A semi-annual summary will be produced by the Compliance Officer on each EA
exporter and circulated to TCID and TFD management.
We are targeting September 14, 2012 for a vetting draft to be circulated to TFD, CRD,
EWG for internal consensus ahead of producing the final draft that will govern
implementation (October 2012).

Recommendations BIIB2: Perform, Document and Monitor CRTI Due Diligence
TCID and TFD have established practices in place for performing CRTI due diligence as
part their respective transaction credit decision making processes. This due diligence is
inherently the responsibility ofthe individual exercising delegated credit authority (IDA).
What may be inconsistent is how each individual with credit authority,or a'subordinate
credit officer producing the credit memorandum for the individual having IDA, is
documenting the CRTI performance. Credit decision memorandum templates or online
system Underwriting Summaries can be amplified for a necessary memo indicator
confirming performance of CRTI prior to formal transaction document production. In
addition, we expect that the Credit Review and Compliance Division will continue to
perform regular reviews of transactions authorized under delegated authority that would
encompass monitoring of the documentation of the CRTI process being completed. We
note that the "hit rate" of matches determined through the current CRTI search process is
extremely low which suggests that incremental risk is limited in this area.

Recommendations Cl/C2: Develop a due-diligence procedures checklist and
monitor compliance with policies and procedures for transactions authorized via
Individual Delegated Authority
We do not believe that a checklist that simply indicates whether basic action has been
taken, without the result of that action, enhances a decision-makers ability to establish
that sufficient action has been taken. The decision-memorandum templates were
developed in an effort to guide loan officers to address essential items of analysis in a
manner that allows the decision-maker to assess whether or not the due diligence
performed was sufficient.

Ex-Im Bank's Short Term Credit Standards serve a dual purpose of offering customers
transparency and a means to assure consistency on how their credit transaCtions are being
evaluated. The Standards also offer credit officers, with or without IDA, a framework for
their credit analysis. However, each transaction may have unique material adverse issues
or require comprehensive justification to mitigate a missed credit standard. The Bank's
Credit Review and Compliance Division annually audits random sample TCID and TFD
transactions with the obj ective of assessing the quality of the credit decision making
justifications and adherence to prescribed due diligence practices. (Please also refer to
response to Recommendations D1-D3 on "Segregation of Duties" as it relates to TCID)

Recommendations DI-D3: Lack of Segregation of Underwriting Duties
TCID processes well over 16,000 transactions annually, many of which are small (less
than $300,000) foreign buyer credit limits. Cycle times and customer service goals are
tight, hence it is impractical,to segregate underwriting and authorizing duties on each
TCID transaction. We propose that segregation of duties apply on only the most elevated
risk transactions, represented by all Enhanced Assignment Agreement transactions,
$1,000,000 or larger Multibuyer policies with loss ratios exceeding 100%, and buyer
foreign credit transactions where footnotes 4,5, 11, and 13 apply or the per buyer
exposure exceeds $1,000,000. The online system currently is programmed to require
segregated duties for both policy and buyer credit limit decision making based on
progressively higher amounts and some ofthe noted footnotes.

TCID proposes that in addition to the Credit Review and Compliance Division's (CRCD)
annual audit of sample TCID transaction underwriting, that TCID management conduct
its own internal, annual audit of transaction samples of each officer with IDA. The
summary findings would be shared with the CRCD.

TFD intends to shortly grant delegated authority (IDA) to loan officers who would then
both underwrite and authorize certain short-term transactions. TFD intends to limit the
amount and risk profile of transactions that could be processed under this authority. Each
transaction would continue to require prior supervisor screening for directing the loan
officer towards decision making action under their own authority.

Recommendation E: Implement Controls to Assure Accurate Calculation of
Exporter Scores
Note: The "Exporter Score" is calculated and used only in the underwriting of an
exporter short term multibuyer policy. The score is intended to differentiate multibuyer
policy exporters based on the quality of their foreign receivable portfolio and how well
they manage foreign credit. The score is then used towards consideration of granting
nominal delegated credit authority (Discretionary Credit Limit) to the exporter for
making smaller foreign buyer credit decisions, effectively reducing a large administrative
burden on TCID staff(approximately 15,000 buyer approvals annually). The score also
contributes towards TCID loan officer's underwriting Special Buyer Credit Limits which
are required for transactions exceeding the exporters delegated credit authority or if the
Country Limitation Schedule restricts use of that authority.

TCID has concluded requesting modifications within Ex-1m Online to assure accurate
calculation is made on quotations, renewal and amendment of multibuyer policies. The
requirements have been presented to our IMT Division and programmer/developers will
build-in the modifications for user acceptance testing by the end of this calendar year.
The tested functionality should be operable by January 2013. In the meantime.,
instruction has been disseminated to TCID staff to manually validate accurate Exporter
Scores at each policy renewal
Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
